            -
        ,




                           MEDICARE CARRIERS’ 

                       PERFORMANCE   OF PROGRAM 

                          INTEGRITY FUNCTIONS 





I
    I




                                  Richard P. Kusserow
                                  INSPECTORGENERAL




                OAI-04-88-00710                         AUGUST 1988
                    MEDICARE CARRIERS’
I

               PERFORMANCE    OF PROGRAM
    ;            . INTEGRITY FUNCTIONS



.I



..




                             .




                        Richard P, Kusserow
                        INSPECTOR   GENERAL




        OAM4-88-00710                         AUGUST 1988
                                EXECUTIVE SUMMARY 


PURPOSE

The purposeof this inspection is to determine: (I) whether existing Health CareFinancing
Administration (HCFA) policies and proceduresare appropriate to ensure adequateprogram
integrity safeguards; (2) whether carriers areperforming their-program integrity respon­
sibilities in accordancewith HCFA operating policies and procedures;(3) whether current
funding levels for carrier program integrity activities are adequate;(4) whether carriers are ac­
counting for costsand savingsperkring to program integrity functions in an appropriateman­
nm, and (5) where changesin HCFA policies or proceduresareneeded.

BACKGROUND

Medicare is a federally-funded program providing health care to the agedand disabled 

Within the Federal government, the Medicare program is administeredby the Department of 

Health and Human Services,Health CareFinancing Administration. Paymentsfor physician 

servicesand medical equipment, such aswheelchairs, are made through private insurancecom­

panies acting under contract with HCFA. Currently there are 46 suchcontractors (known as 

“carriers”), eachwith the responsibility for the payment of claims in a designatedgeographic 

area. 


It is estimated that the Medicare carriersprocessedover 333.4 million claims in Fiscal Year 

1987. In the processingof theseclaims carriers must ensurethat payments are made only for 

servicescovered under the Medicare program, medically necessaryunder recognized stand­

ardsof medical care, and actually renderedto eligible beneficiaries (Medicare patients). In­

cluded within the function cat&d out by the carriers to meet theseresponsibilities are 

functions generally labeled as “program integrity.” Operating guidelines promulgated by 

HCFA for the performance of program integrity functions are contained in the Medicare Car­

riers Manual (MCM), sections7500 (“Payment and PostpaymentProcedures”)and 11000 

(“Fraud and Abuse”). 


The HCFA monitors carriers’ performanceof their contractual responsibilities, including 

program integrity, through the Contractor PerformanceEvaluation Process(CPEP). Under 

this process,a yearly evaluation of individual facetsof the ctiers’ operations is conducted by 

HCFA personnel. Carriers must achieveminimum performance levels set by HCFA in order 

to retain their Medicare contracts. 


This inspection was carried out as a joint effort of the three major componentsof the Office of 

Inspector General: the Office of Analysis and Inspections(OAl), the Office of Audit (OA), 

and the Office of Investigations (Oi). The data collection processincluded review and 

analysis of pertinent HCFA and carrier budget and procedural documents,as well asexamina­

tion of over 250 individual provider program integrity casefiles maintained by the carriers. In 

    addition, 190 personswere interviewed at nine carriers, sevenHCFA regional offices, and the
    Bureau of Program Operations and Bureauof Quality Control in HCFA’s central office.

    FINDINGS

         Certain HCFA policies/proceduresregarding carriers’ program integrity functions are
         outdated and are not being applied by carriers asintended in all instances.
l
         Funding levels for program integrity functions appearadequatebut the trend toward
         allocation of carrier resourcesaway from traditional program integrity processesis a
         concern,

         Carriers areproperly accounting for costsand savingsfigures attributable to their
         program integrity functions.

         Improvements are neededin the OIG’s systemsfor providing feedbackon the statusand
         disposition of fraud casesrefened by the carriers.

    It should be noted that severalof the aboveEndings havepreviously beenrecognized and ac­
    tion is being taken. For example, HCFA hasrecently testednew guidelines for postpayment
    review (MCM 7500) on a demonstrationbasisat sevencarriers. Also the CPEPis being
    modified to place more emphasison quality versusquantity in evaluation of canier “program
    integrity” activities.

    RECOMMENDATIONS

    The HCFA should

          Implement the new MCM 11000 sectionproposedby the OIG at the earliest possible
          date. Consultation should be held betweenHCFA and the OIG to remove any
          impediment to such implementation, and to consider the necessityof further
          modification of this section basedon the other recommendationscontained in this report.

          Proceedwith the implementation of the new MCM 7500 section, after results of the
          demonstration project have beenthoroughly analyzed.

          Designate a Program Integrity Coordinator in eachHCFA regional office to act asa
          liaison with carriers on all program integrity matters.

          Separateprogram integrity costsfrom prepaymentreview costsfor budget and
          accounting purposes.




                                                  ii
.	   Improve the technical knowledge of fraud and abuseissuesof personsperforming the
     CPEPreview of the carriers’ program integrity area.

.	   Expand the fraud and abuseelement of the CPEP to include the review of a more
     representativesample of fraud and abusecaseshandled by the carrier.

.	   Modify the current measureof the efficiency of the carriers’ postpaymentreview
     activities to give more credit for innovative approachesdevelopedby the carrier, and for
     activities that benefit Medicare patients aswell asthe Medicare program.

The OIG should:         .

.	   Undertake a detailed examination of casecontrol systemsand other processesinvolving
     carrier/OIG interaction and consider the needfor altering thesesystems/processesto
     improve communications.




Excerpts of HCFA’s responseto the OIG’s recommendationsare incorporated into the
“Recommendations” sectionof this report.

As reflected by their comments,HCFA agreeswith many of the recommendationsbut dis­
agreeswith others. Generally where disagreementoccurs,it centersaround the issuesof
availability of HCFA/catrier budget and/or staff to perform the functions addressedin the
WC=
The HCFA sharesa common belief with the OIG that controlling fraud andabuse is essential
to the continued well being of the Medicare program and they (I-ICFA) are willing to work
with the OIG to try to resolve any differences in suggestedapproachestoward achieving this
god. “...We support any positive steps(e.g. cross-training,joint projects, regional
HCFA/OIG/carrier meetings to discussprogram integrity issues)that will enhancethe effec­
tivenessof the process.” Already HCFA hasinvited OIG to participate in two meetings with
carrier personnel to discussimplementation of the new MCM 7500 postpayment guidelines.
The OIG intends to work closely with HCFA and the caniers on an ongoing basisto facilitate
additional opportunities for resolving the issuesraised in this report.




                                              ...
                                              111
                                                  TABLE OF CONTENTS 

                                                                                                                                     Page


EXECUTIVE            SUMMARY

INTRODUCTION                ...........................................................................................~.~....... 1 


       Background            .......................................................................................‘............       1


                                                                                                                    6
       Purpose ......................................................................................~~~*.~=~*~*~=~****~~*

       Methodology             ...................................................................................................      6


FINDINGS ...............................................................................................................                8


       Current HCFA policies concerningcarriers’ 

       program integrity functions are not aseffective 

       or efficient asthey should be in severalkey areas............................................... 8 


       Carriers are not applying thesepolicies as 

       intended by HCFA in all instances.................................................................... 9 

       Funding ievelsfor program integrity functions                               ’

       appearto be adequatebut the trend toward 

       allocation
       .
         of resourcesawayfrom thesefunctions 

       1sa concern ...................................................................................................... 11 


       Carriers are properly accountingfor 

       program integrity costsand savings,..............................................................*.... 13 


       The lack of meaningful monitoring and          .

       feedbackhasa negativeeffect on 

       carrier performanceof program integrity functions............................................ 13 

RECOMMENDATIONS                          ..........................................................................................~17 

                                     INTRODUCTION 


BACKGROUND

Medicare is a federally-funded program establishedto assureaccessof the elderly and dis­
abled to quality health care servicesand supplies by meansof payment assistance.The
program is divided into two distinct parts: (1) “Part A” - which primarily covershospital ser­
vices and supplies, and (2) “Part B” - which covers’physician’s servicesand “durable medical
equipment” such as wheelchairs. This inspection deals with Part B.

HCFA-Administered    - Within the Federal government, the Medicare program is administered
by the Department of Health and Human Services,Health CareFinancing Administration
(HCFA). Overall direction is provided by HCFA’s central office component located in Bal­
timore, Maryland Responsibility for administering the program in specific Statesis shared
among 10 HCFA regional of&es located in major cities acrossthe country.

Private Sector Involvement     - Paymentsfor servicesor suppliescoveredunder Part B of the
Medicare program are made through private insurancecompaniesacting under contract with
HCFA. Curmntly there are 46 suchcontractors(known as “carriers”), eachwith the respon­
sibility for the payment of claims in a designatedgeographicarea. The HCFA provides direc­
tion to the carriers on payment matters and is ultimately responsiblefor assuringthat carriers
are adhering to applicable program policies and proceduresgoverning suchpayments.

Adnzinistrolive  Costs - Overseeingthe budget processrelated to administrative costsincurred
by the catriers in making program paymentsis anotherHCFA function. As the following table
indicates, both thesecosts,and the volume of Part B chums handled by the carriers, have in­
creasedsignificantly in recent years:

                                     Administrative                     Claims
            Fiscal                       costs                          Volume
            Year                       (Millions)                      (Millions)

            1984                         $492.4                            213.2
            1985                           581 .l                          265.9
            1986                           589.6                           296.4
            1987                           659.3 (est.)                    333.4 (est.)


Program    Infegtity - With suchan enormousnumber of claims to process,it is imperative that
carriersensurepayments are made only for servicescoveredunder the Medicare program,
medically necessaryunder recognized standardsof medical care,and actually renderedto
eligible beneficiaries (Medicare patients). The meansby which the carriers fulfill this obliga­
tion is known generally as the “program integrity” function.



                                               1

    Although no official policy exists on precisely which carrier processesconstitute the program
    integrity efforts, there is general agreementamong carrier personnelthat the processesencom­
    passat least the following activities:
          .	    prepayment review--the review of claims submitted by certain providers and
                suppliersof medical servicesor equipment, or for certain types of servicesor
                equipment, where the carrier hasreasonto believe that unnecessaryor noncovered
                careis being billed;
.

          .	    posrpayment review--the review of paid claims which allows the comparison of
                servicedelivery patternsof providers or suppliers over a period of time with those
                of their peersover the sameperiod; and

          .	    complaint resolution--the processundertakento develop and resolve situations
                where an allegation or indication of potential fraud or abuseis present.

    Other monitoring functions aimed at ensuringproper paymentsfor servicescould under­
    standably be included in the definition of program integrity aswell. However, while many dif­
    ferent activities may be important to protect the integrity of the Medicare program, the two
    most critical to the detection and eventualresolution of significant instancesof fraud or abuse
    are the postpaymenr review and complaint resolution areas. Accordingly, for purposesof this
    inspection, the term “program integrity” relatesonly to thesetwo areas.

    Current Requirements - The guidelines which HCFA hasestablishedfor conducting the
    postpayment and complaint resolution functions arecontained in the MCM sections7500 and
    11000respectively. Both prepayment and postpaymtnt review processesare addressedunder
    the general headingof Medical ReviewAJtilkation Review (MR/UR).

    Postpayment Review - The principal methodology of the postpaymentMRIUR processis the
    retrospectiveanalysisof paid claims data covering an extendedperiod of time, usually 1 year.
    This processis currently known asthe Initial Three PercentInvestigation List (lTPIL) and is
    mandatedby HCPA.for use by all carriers. This processbegins with the computer generation
    of the previous calendaryear’s paid claims data for all providers (physicians or suppliers of
    medical equipment) in the carrier’s servicearea. This dataconsistsof the comparison of the
    pattern of practice of individual providers with that of their peersin at least 13 separate
    categoriesof services,suchas office and hospital visits.

    Review Selection Process (ITPIL) - After the data is generated,an initial review is made by
    “qualified” carrier personnel,often a registerednurse,to identify 3 percentof the total number
    of providers whosepatternsof practice indicate somepotential aberrancyascompared with
    the patternsof practice of their peers. These 3 percentare then subjectedto threedistinct,
    graduatedlevels of review, asillustrated by the following chart:




                                                   2

     All Cases                                                  “PRELIMINARY             REVIEW”
                                            w
     Selected
                                                          Review of Statistical or Claims Data
                                                          for Processing or Billing Errors




                                                       Medical Review of Clafms for at least



                                                                    -omaalhlJnmahd*uwr

                                                               ‘I
                                                           l *FUU SCALE REVIEW”

                                                      Medical Review of Claims for Additional
                                                      Benefidries     and Medical Records


                                                      contacts with Benefidarfes




Corrective Actions - When a question still remains after all levels of review have beencorn-.
pleted (caxzier statistics show almost 91 percentof the providers initially selectedare dropped
out before nacbing the final review level), the carrier is required to institute corrective action
in one of the following forms:
      .	         referral of the provider to the Office of Inspector General (OIG) for criminal
                 investigation and/or administrative sanctionaction suchasexclusion from the
                 Medicare program;

      .          educational contactswith the provider,

      .          referral for peerreview by a professional body, such asa Statemedical society;

      .          assessmentand collection of an overpayment; and/or

      .	         automatic prepayment review of all claims for servicesrenderedby the provider
                 under review.

Periodically, the carriers must conduct follow-up reviews of theseproviders to ensurethat the
corrective action taken hasbrought about the desiredeffect.
     Complaint Resolution - The carriers’ postpaymentprocessdescribedabovebasically repre­
     sentsa proactive approachto detecting and resolving potential fraud and abuseissues. The ac­
     tivities which the carriersperform under complaint resolution are more reactive in nature.
     Examples of situations that would trigger the complaint resolution processare: (1) a com­
     plaint or other report that a claim was submitted for suppliesor serviceswhich were not
     provided, or (2) a report from the claims processingareathat a physician’s bill appearsto have
     beenaltered.

     Investigation   - Where suchmattersinvolve questionableutilization practicesor quality of care
     issues, the complaint resolution review processfollowed by the carrier may be very similar to
     that usedin the postpayment areaasalready described. (In fact, in many carriers, thesefunc­
     tions are conducted by the samepersons.) However, where potential fraud is suspected,the
     carrier’s role is usually limited to the initial developmentundertakento resolve such situa­
     tions. This may include contactswith personnelin other parts of the carrier’s operations,
     review of medical and other recordson hand, and limited contact with Medicare patients of
     the “suspectprovider.” Investigation of a potential fraud matter beyond the initial develop­
     ment stagesis the responsibility of the Office of Investigations (OI)/Office of Inspector
     General. Carriersrefer such casesdirectly to the 01 regional office which servestheir
     geographic area.

     Technical Advisory Croups - To help fulfill its responsibilities to monitor carrier performance
     and to determine the needfor policy or operational reforms, HCFA hasformed Technical Ad­
,

     visory Groups (TAGS) for various areasof the caniers’ operations,including one for Medical
     Review/Utilization Review. The TAG membershipincludes carrier personnelwith expertise
     turdexperiencein the specific areaof carrier operations. Central and regional office HCFA
     staff also serveasmembers. The MRAJR TAG dealsnot only with matters involving prepay­
     ment and postpaymentreview, but with the complaint resolution areaas well, although the lat­      .

     ter is lessof a focal point than the other two.

     MRIUR Proposed Changes - Severalyearsago the MR/UR TAG evaluatedthe carriers’
     postpaymentprocesses(primarily IIPIL) in responseto a growing concern that thoseproces­
     seswere not aseffective and efficient asthey should be. As a result of the TAG’s evaluation,
     a draft for a new MCM 7500 sectionhasbeenwritten which significantly alters the current
     ITPIL process. The principal improvement being proposedis the broadeningof the process
     by which providers are initially selectedfor review by including the useof other information
     sourcesin addition to the computer-generatedpeercomparison data. This changeshould
     allow the carriers to havegreatersuccessin identifying “productive” casesinitially, without
     having to spendas much time and effort weeding out the “nonproductive” casesduring the
     subsequentreview processes.

     The changesthe TAG hasproposedwere recently testedon a demonstration basisat sevencar­
     riers during the period October 1, 1987,through March 31, 1988. Following this test,HCFA
     hasbeenevaluating the rest&s. If no major problems are found, HCFA plans to mandatethe
     changesfor implementation by all carrierseffective October 1, 1988.



                                                    4

      Strengthen Program Integrily Requirement          - The OIG hasproposeda new MCM 11000sec-
      tion which would strengthenthe carriers’ efforts in the fraud and abuseareasin a number of
      ways. Chief among suchimprovements are the requirementsthat carriers: (1) designate
      specific staff to coordinate or carry out all of the carrier’s program integrity functions; (2) es­
      tablish a training program for all levels of employeesto acquaint them with the goals and tech­
      niques of fraud and abusecontrol; and (3) establisha provider and beneficiary educational
      program on fraud/abusepenaltiesand administrative sanctions. The HCPA hasnot yet imple­
      mented theserevised instructions.

      Pe@kmance Monitoring - In add&ion to establishing the policy and guidelines by which the
      carrier must conduct its program integrity effort,,HCPA is responsiblefor ensuring that car­
      riers am actually performing thesefunctions in accordancewith thesepolicies and guidelines.
      This responsibility is met through HCPA’s Contractor PerformanceEvaluation Program
      (CPEP). Under CPEP,personsfrom HCPA’s regional offices conduct an annual review of
      various elementsof each aspectof the carriers*operations. Specific criteria, standards,ex­
      pectedlevel of performance and methodsof evaluation for eachelement are establishedby
      HCPA central office on a yearly basis. Point scoresare assignedto eachelement by the
.i    reviewers, and carriersmust accumulatea minimum number of points in order to retain the
      Medicare contract. Resultsof the CPEParereportedin the Annual Carrier Evaluation Report
      (ACER) which HCPA issueson eachcarrier.




tI.




                                                      5

PURPOSE

The purposeof this inspection is to determine: (1) whether existing HCFA policies and proce­
dures are appropriate to ensureadequateprogram integrity safeguards;(2) whether carriers are
performing their program integrity responsibilities in accordancewith HCFA operating
policies and procedures;(3) whether current funding levels for carrier program integrity ac­
tivities are adequate;(4) whether carriers are accountingfor costsand savingspertaining to
program integrity functions in an appropriatemanner and (5) where changesin HCFA
policies or proceduresare needed. Among specific questionsto be addressedare:
      .	    Are current guidelines covering program integrity sufficient to assurethe
            efficiency and effectivenessof the carriers’ processesfor identifying and
            resolving potential fraud and abusematters?

      .     Are carriers applying program integrity guidelines asintended by HCFA?

      .	    What is the level of funding budgetedby HCFA for carrier program integrity
            activities? Is this Ievel adequate?

      .	    Are carriers properly accountingfor the costsof program integrity activities? Are
            cost and savingsamountsusedby HCFA to evaluatecarrier effectiveness
            properly computed and adequatelysupported?

      .	    Art there negative/positive influences on carrier performance of program integrity
            functions?

      .	    What changescan be madein the current policies that would improve the                .
            effectivenessand efficiency of the carriers’ program integrity efforts?

METHODOLOGY

This inspection was conductedasajoint effort of all threecomponentsof the Office of Inspec­
tor General: the Office of Audit (OA), the Office of Investigations (01). and the Office of
Analysis and Inspections (OAT). Overall coordination of the project wasprovided by OAI.

Records Reviewed - The HCFA budget and policy/procedural documentsrelated to the
carriers’ program integrity function were reviewed and analyzed. An analysisof individual
carrier’s internal records and procedures,along with various carrier performancereports cover­
ing the period of Fiscal Year 1984 through the present,was also performed. Over 250 in­
dividual provider program integrity casefiles maintained by the carriers were examined.




                                              6

Persons Interviewed - The bulk of the information gathered,however, came from interviews
with personsmost closely involved in the carriers’ program integrity processes,both in HCFA
and at the carriers themselves. In all, 190personswere interviewed. Theseincluded: 151 at
9 carriers; 27 at 7 HCFA regional offices; and 12 at the Bureau of Program Operationsand
Bureau of Quality Control in HCFA’s central office.
     .

                                                   FINDINGS 


         EFFECTlVENESS         OF CURRENT       POLICY

         Current HCFA policies concerning the carriers’ performanceof their program integrity func­
         tions are not aseffective or efficient asthey should be. Specific findings of this inspection are:

.        HCFA Guidelines Not Used

               .	    Canier staff membersinvolved in the program integrity function generally do not
                     use the current MCM 11000and 7500 sectionsasoperating guidelines. They rely
                     instead on internal proceduresthey havedtveloped on their own. Reasonsgiven
                     by carzierpersonnelinterviewed am that the manual sectionsare outdated,
                     somewhatconfusing, and too generalto be of practical use.

               .	    Confusion exists among carrier program integrity staff asto whom to contact
                     (HCFA or the OIG) on procedural or policy mattersinvolving the complaint
                     resolution areasince the OIG assumedresponsibility for investigating Medicare
                     fraud cases. Providing suchdirection is primarily HCFA’s responsibility.
                     However, current guidelines do not make this clear. Many carrier staff members
                     believe that HCFA doesnot havethe technical knowledge of the complaint
-4                   resolution processnecessaryto adequatelyperform this function.

         Peer Review Inadequate

               .	    Current HCFA policies do not require carriers to useindependentpeerreview
                     groups for ren&ring opinions on practice patternsof physicians who chronically
                     abusethe Medicare program. Experiencehasshown that suchpeerreview is
                     important to support administrative sanctionactions taken againstproblem
                     physicians when other forms of corrective actions have failed. Although some
                     carriers havecontractedfor peerreview with Stateor local medical societies,
                     others havenot sought suchservice,or have not found it to be satisfactory. These
                     carriers utilize only their own individual medical consultants. Only one of the
                     nine carriers visited made useof the peerreview capacity of the peerreview
I
                     organizations (PROS)already under contract with HCFA.

         Review Selection Process Ineffective

               .	    Processeshistorically man&ted by HCFA for carriers’ usein selectingproviders
                     for post-paymentreview havetendedto be ineffective in identifying the worst
                     abusersof the Medicare program. Only a few providers identified on the Initial
                     Three PercentInvestigations List eventually prove to be defrauding or abusingthe
                     program, and much time and effort is wastedin weeding out nonproductive cases


                                                                                                   .
                                                         8
              from thoseoriginally selected. This finding is consistent with that made by the
              MR/UR TAG from its researchfor development of new postpayment guidelines.

CarrierlState Medicaid Relationships

      .	      Only three of the nine carriers visited havean effective working relationship with
              the Stateagenciesadministering the Medicaid program in their areas. Where such
              a relationship exists, information being sharedon investigative or review methods
              and on providers suspectedof fraud or abusehassignificantly enhancedthe
              carrier’s overall program integrity effort. One carrier conductsjoint reviews of
              someproviders in cooperation with Medicaid staff. Current HCFA policies
              encouragesuchrelationships but do not require or facilitate them.’


CARRIER       APPLICATION      OF HCFA POLICY                              .

Current HCFA policies regarding the performance of the program integrity function are not
being applied as intended by HCFA at the nine carriers visited. (However, since the policies
themselveswere found to be deficient, failure to properly apply them doesnot necessarily
result in a lesseffective program integrity effort) The extent of this problem was found to
vary greatly from carrier to carrier, with somecarriers apparently doing their bestto comply
with current requirements while others are making considerably lesseffort. The following are
examplesof deficiencies noted at one or more caniers during the courseof this inspection
which are consideredsignificant enough for comment:

Inappropkte     Handling Of Cases

      0. 	    Sevenof the nine carriers visited are closing potential fraud casesprematurely by
              resolving the initial complaint without expanding the review to determine if the
              problem is widespread. At one carrier this situation occurred even though the
              carrier already had evidence in its files that the alleged problem was, in fact,
              widespread In this case,the carrier had received 15 separatecomplaints against a
              durable medical equipment @ME) supplier over a period of time. Allegations
              made in thesecomplaints concernedbillings for equipment that the patient had
              neverreceived, and continuing to bill for equipment after it had beenreturned to
              the supplier. Each complaint was handled by the carrier as though it were an
              isolated incident, when the pattern of potential fraud or abusesuggestedby the
              number and similarity of the allegations should have causedthe carrier to refer the
              caseto the OIG for further investigation.

      .	      In many instancescarriers are not including administrative sanction warning
              notices in their correspondenceto providers asrequired in MCM 11000. Such
              omissions make it more difficult for the OIG to initiate strongeraction against the
              provider if the carrier’s initial contact fails to resolve the issues.



                                                 9

      .	    Three of the carriers visited havean early screeningpolicy where direct contact is
            made with the subjectof an allegation to requestdocumentation of the service(s)
            in question. This is done eventhough the allegation may be that the provider is
            billing for servicesnot renderedand prematurecontact with the subject may
            compromise a potential criminal investigation.

      .	    Canicrs an proceedingto identify and recoveroverpaymentswithout fast
            consulting the OIG in caseswhich may warrant criminal or administrative
            sanction actions. Carrier pcrso~el     interviewed indicated that pressureto do this
            arises,in part, from the needfor carriers to identify actual dollars savedasa result
            of their efforts in order to retain their Medicare contracts. (Specific criteria by
            which the carriers’ “program integrity” functions are evaluatedby HCFA are
            discussedlater in this report)

      .	    None of the nine carriers visited arereviewing a full 3 percent of their active
            providers through the IIPIL process. Some havereducedthis figure, with
            HCFA’s permission, by eliminating the review of certain categoriesof providers
            or serviceswhich haveproven unproductive in the past. Othershaveunilaterally
            reducedthe percentagereviewed simply by selecting fewer providers. In both
            instances,carriers claim they are attempting to bring the number of providers to
            be reviewed down to a number they can more realistically handle.

Carriers Behind Schedule

      .	        Despite the reduction of the ITPIL, many carriers are still behind in their review
                processand are not resolving caseswithin the l-year time-        required. One
                canier hasan internal goal of resolving caseswithin 4 years.

Inappropriate     Prepayment Review

      .	        Providers whoseclaims havebeenplacedon special prepaymentreview, asa
                result of problems identified in the postpaymentprocess,are often left on
                prepaymentreview indefinitely without periodic evaluation to determine whether
                additional action may be needed. It was noted, for example, that one carrier had a
                number of providers on specialprepaymentreview at the time of our visit that had
                beenin this statusfor over 5 years. The carrier had not performed any periodic
                evaluation of thesecasesto determine what further action was necessaryto
                resolve theseproblems so as to remove theseproviders from the costly
                prepaymentreview process.




                                                   10 

Training Needed

      .	    Overall program experienceand knowledge levels of personsworking in the
            carriers’ program integrity areaarerelatively high, with most personshaving
            spentat least severalyears in claims processing. However, a lack of expertisein
            specific methods and techniquesfor reviewing and processingcasesinvolving
            potential fraud or abusewas noted at severalof the carriers visited. Thesecarriers
            do not appearto have the capability to correct this deficiency without outside
            technical assistance.


ADEQUACY OF FUNDING LEVELS

Lack of adequatefunding for carriers to perform their program integrity functions doesnot ap­
pear to be a seriousproblem at this time. However, the manner by which suchfunds are allo­
catedamong the carriers’ various operationsmay be gradually eroding the effectivenessof the
program integrity effort. Also, asHCFA determinesthe needfor increasedmonitoring in
selectedareasof carrier activity, the monitoring functions are often placed with the samestaff
responsiblefor the traditional program integrity roles. This in turn diffuses the staff effort in
fraud and abusecontrol. .

Program Integrity Costs Not Identifiable

      .	    Un&r current HCFA budgeting and accounting procedures,costsof the carriers’
            program integrity functions are included with costsof various prepayment
            activities in the generalcategory entitled Medical Review/Utilization Review.
            Costs attributable to the individual functions within this category arenot
            specifically identified. Accordingly, it is not possible to identify the “adequacy”
            of funding for any particular function by itself.

Funding Increased

      .	    Funding levels for the MR/UR category haveincreasedduring the period covered
            by this review from $36.3 million in Fiscal Year 1984 to an estimated$68.2
            million in Fiscal Year 1987. Someof theseincreasescan be attributed to changes
            in accounting proceduresmade during this period, however, there hasalso been
            an actual increasein funds available for useby the carriers.

Allocation Changed

      .	    Since Fiscal Year 1984, the useof MRAJR funds by carriers hasshifted
            dramatically away from postpayment (including ITPIL and complaint resolution)
            and toward prepayment activities as a result of a higher rate of measurable
            savingsachievedthrough the latter. While fiscally prudent on its face, this shift,



                                               11 

                                 in combination with other factors discussedlater in this report, hashad the
                                 unintentional effect of eroding postpaymentfunctions critical to the assuranceof
                                 quality care and to the detection of providers abusingor defrauding the Medicare
                                 program. The following chart illustrates this trend at the nine carriers visited
                                 during this inspection:

                     .               REPORTED CHANGE IN MR/lJR COST AT SELECTED CARRIERS

I

                                      mc---­
/-
                 .




         .   .




                     Functions A&d

                          .	     Numerous functions generally aimed at cost containment have beenaddedto the
                                 postpaymentreview areain recent years. This hasdiverted carrier staff away
                                 from the more traditional program integrity functions. Staffing levels in the
    !

                                 carriers’ postpayment areado not appearto havekept pacewith theseadded
                                 responsibilities, nor with the additional workloads resulting from the increased
                                 claims volume being handled by the carriers (aspreviously noted in this report).


                     Some New Functions Ineffective

                          .	       According to carrier staff interviewed, someof the functions addedto the
                                   postpaymentareaare not effective or efficient in terms of either dollars returned
                                   or deterrence. Most frequently mentioned is the Part A and Part B link. This
                               . 	 processrequirescarriers to make medical necessitydeterminations on the Part B
                                   physician’s billing for a beneficiary eachtime the Part A contractor
                                   (intermediary) reducesor fully deniesthe hospital stay of that patient. When the
                                   Part B serviceis also found to be medically unnecessary,usually no overpayment
                                   is collected due to waiver of liability provisions of the Medicare law. These
                                   provisions statethat for a patient to be held financially responsible,he must have
                                   known prior to the servicebeing renderedthat it would not be covered.




                                                                     12 

CARRIER     ACCOUNTING       PROCEDURES

No significant deficiencies were noted in the methodology or proceduresby which MR/UR
costs (including costsof program integrity) are accountedfor at the carriers visited.

CostiSavings Properly Documented

      .	    Costsdirectly charged to the lVWUR operational category are adequately
            supportedby sourcedocumentation.

      .	    Indirect costsarechargedon the basisof reasonableallocation methods applied
            consistently to applicable carrier cost centers.

      .	    Savingsfigures attributed to the postpaymentprocesswere verified at eachof the
            carriers visited and no major discrepancieswere observed.

INFLUENCES      ON CARRIER       PERFORMANCE

This inspection revealedtwo factors which influence carrier performanceof the program in­
tegrity function: (1) the attitude of the carrier’s own managementregarding the importance of
this function; and (2) the perception of carrier staff regarding the importance which HCPA and
the OIG attach to the program integrity effort, asreflected by the monitoring and feedback
provided in this area. Regarding the first factor, managementattitudes differ greatly from car­
rier to carrier. Regarding the second,somecarriersperceivea needfor better communications
with the OIG concerning casereferrals while alI carriers visited believe that program integrity
is not ashigh a priority for HCPA as an other areas,suchasprepayment and claims process­
ing.

Emphasis On Dollars Saved

      .	    The principal measurementof the eficiency of the carriers’ postpaymentreview
            processutilized by HCPA in its Carrier PerformanceEvaluation Program (CPEP)
            is the Cost Benefit Ratio (CBR). This is the ratio of savingsattributable to a
            function to the cost of performing that function. Carriers must achieve a
            combined CBR of no lessthan 5 to 1 for their prepayment and postpayment
            review processesto receive a passingscoreon the CPEP.

Benefits Of Postpay Not Recognized By CPEP

       .	   Historically, the CBR of the prepayment areahasbeen7 to 1 or better, while that
            of postpaymenthasbeen 1 to 1 or less. This may be attributed to the fact that the
            postpaymentprocessis much more labor intensive, and thus more costly than
            prepayment. Also, much of the benefit achievedby the postpayment effort is in
            the form of deterring fraud and abuse and protecting Medicare beneficiaries from


                                               13 

                      harmful or unnecessaryservices. Thesebenefits are not easily measuredin terms
                      of specific dollars saved. The disparity in the CBR’s was cited by carrier
                      managementasone of the principal reasonsfor the shift in the percentageof
                      funds allocated from postpaymentto prepayment.

       Insufficient   Review Of The Effectiveness Of Postpay

              .	      The effectivenessof the carriers’ postpaymentfunction is measuredprirm&ly by
                      their adherenceto HCFA guidelines covering review processesand reporting
                      requirements. Carriers visited in this inspection reported, however, that they have
                      not seena great deal of attention paid to this particular review element by HCFA
                      in recent years. The CPEPelement measuringeffectivenessdoesnot carry as
                      much weight in the point scoregiven the carriersasdoesthe element measuring
                      the CBR.

       Insufficient   Review Of Complaint Resolution

               .      The HCFA measurescarrier performancein the complaint resolution areaby
                      reviewing 10 fraud or abusecaseswhich are openedby the carrier sometime
                      between the beginning of the year and the date the CPEPreview is conducted
                      during that year. Both carrier and regional office staffs believe that this is not an
                      adequatemeasurementof the carriers’ total performancein this area. The three
                      principal reasonsare said to be: (1) too few casesarereviewed to provide a valid
!I 
                  reflection of carrier investigative and review processes;(2) cases“opened’
                      between the beginning of the year and the dateof review may only be several
                      weeks/monthsold and, thus, may havehad little or no action taken; and (3)
                      HCFA personnelconducting the casereview generally do not havesufficient
                      training or background in fraud and abusematters to sufficiently assesscarrier
                      performance in this area.

       Program Integrity Frequently Not Reviewed

               .	     Carriers assertthat neither the fraud and abusenor the effective postpayment
                      elementsof the CPEP havereceived sufficient attention in recent years. Their
                      assertionsare supportedby the results reported by HCFA. in the Annual Carrier
                      Evaluation Reports (ACER’s). The following chart revealsthat theseelements
                      were not reviewed in the Fiscal Year 1986CPEP at a significant percentageof the
                      46 carriers under contract that year. Additionally, where theseelementswere
                      reviewed, the carriers were usually given full credit. This inspection however,
                      found at least someprocedural or technical deficiencies at every carrier visited.




                                                          14 

I                                     1986 ACER RESULTS - ALL CARRIERS

      FUU CREDIT 50%                               PARTIAL CREDIT 15%                  FULL CREDIT 33%




I               -- FRALID   A ABUSE    ELEMENT                     EFFECTIVE POSTPAY ELEMENT             I


Lack Of Feedback

     .	     A comment heardquite frequently during this inspection was that HCFA is not
            providing meaningful feedbackon’the carriers’ performance of program integrity
            efforts. Neither the CPEP nor the performancereports submitted periodically by
            the cartiers themselvesappearto generatethe neededdialog betweenHCFA and
            the carriers. For 1985and 1986,HCFA did not require the caniers to submit their
            annual managementreports. These arethe only complete sourceof information
            produced on carrier program integrity activities. When thesereports were
            required, carriers indicated that they received little or no responsefrom HCFA on
            their performance, or on other carriers’ a&ties in the program integrity area.

      .	    Severalcaniers pointed out that the OIG needsto be more involved with their
            (carriers’) program integrity responsibilities. Timely and consistenthandling and
            feedbackon statusof suspectedcasesof fraud referred to the OIG were the
            principal areasmentioned. Carriers believe better systemsare neededto facilitate
            communications on suchreferrals.


CONCLUSION

A summary of the findings of this inspection revealsthat:

      (1) current HCFA policies concerning carriers’ program integrity functions are not as
      effective or efficient asthey should be in severalkey areas;

      (2) carriers are not applying thesepolicies asHCFA intends in all instances;

      (3) funding levels appearadequate,but allocation of carrier resourcesaway from
      traditional program integrity processesis a concern;




                                                    15 

      (4) carriers are properly accounting for costsand savings;and

      (5) the lack of meaningful monitoring and feedbackhasa negativeeffect on carrier
      performance.

It should be noted that the extent of the aboveproblems did vary fn>m HCFA ngional office
to regional office, and from carrier to carrier. Deficiencies obsemedpertained more to the na­
ture of the policies or processes,rather than to the people perfoxming them, who in generalap­
pearedto be making a reasonableeffort Additionally, HCFA is already taking stepsto
impmve carrier performance of program integrity functions through the testing of the MR/UR
TAG’s revisioti of the postpayment guidelines, and by modifying the 1988 CPJV to place
more emphasison quality over quantity. Through the continuation of suchefforts and the
adoption of the following recommendations,the carriers’ performanceof their program in­
tegrity functions should be enhancedsignificantly.




                                              16 

                                                                                                .Z




                                  RECOMMENDATIONS

The following actions are recommendedas a result of the findings of this inspection. Excerpts
of HCFA’s responseto theserecommendationsare included

RECOMMENDATlON#l 

Implement     New MCM 11000 Section 


Finding:  Carrier staff membersinvolved in the program integrity function do not often use
the current MCM 11000section as an operating guideline, as they consider it outdated, some-
what confusing; and too generalto be of practical use.

Recommendation:    The HCFA should adopt and implement the MCM 11000sectionproposed
by the OIG at the earliest possible date. Consultation should be held betweenHCFA and the
OIG to remove any impediment to suchimplementation, and to consider the necessityof fur:
ther modification of this section basedon the other recommendationscontained in this report.

Impack This will provide the carrier with a more practical, up-to-date guideline for perform­
ing the program integrity functions.

HCFA Comments: “HCFA believesthat controlling fraud and abuseis essentialto the con­
tinued well-being of the Medicare program. To this end, $5.6 million hasbeenincluded in our
FY 89 funding requestto implement the proposedinstructions. It must be recognized,
however, that considerabletime haselapsedsince the manual instructions were originally
drafted and in the intervening period there have beennumerouspolicy and program changes.
It is essentialthat the proposedmanual instructions be reexamined by our respectivestaffs to
assurethey am accurateand current before they are finalized and issuedto the contractorsand
regional offices.... Webelieve theseadditional requirements(within the new instructions)
could cost more than the $5.6 million requestedfor FY 1989. As part of a reexamination of
the proposedmanual instruction, staff from the OIG and HCFA should complete a fiscal
analysisof the proposedinstructions to determine cost.”


RECOMMENDATlON#2 

Proceed     With Implementation        Of New MCM 7500 Section 


Finding: Certain postpaymentprocesses(e.g., ITPIL) &scribed in MCM 7500 are ineffective
and are not identifying the worst abusersof the Medicare program.

Recommendation:       HCFA should proceedwith the implementation of the new MCM 7500
section,recommendedby the MlWJR TAG, after completion of the current demonstration
process. However, HCFA should ensurethat a thorough analysis of the demonstrationresults
is carried out to identify and correct any potential weaknessprior to mandating the new
guidelines for all carriers.



                                               17 

Impact: Implementation of the MR/UR TAG’s suggestedchangesshould improve both the ef­
fectivenessand efficiency of the carriers’ processesfor identifying and resolving mattersin­
volving abuseof the Medicare program.

HCFA Comments:    “We plan to implement revisedproceduresfor all carriers on October 1,
1988 assumingthe analysis supportsnational implementation and providing that funds have
beenmade available. Obviously, fund availability will determine the timing of the implemen­
tation of MCM 7500 sections.”


RECOMMENDATION      #3 

Ensure Carriers Have And Maintain          Capability   To Apply New MCM Sections 


Finding: Certain HCFA policies regarding the performanceof the program integrity function
are outdatedand are not being applied asintended in all instances.

Recommendation:     In conjunction with the implementation of the new MCM 11000and 7500
sections,HCFA should ensurethat eachcarrier hasthe capability to apply the new guidelines
asintended. Such an assessmentshould include: (1) adequacyof resources,including number
and qualifications of available’smff; (2) training needs;and (3) sufficiency of internal operat­
ing procedures. Additionally, the HCFA should conduct annual reviews of the overall
program integrity processto assurethat expectedresults am being achieved. Program in­
tegrity methods and proceduresmust keep pacewith the rapidly changing manner of deliver­
ing health care services,and the increasingly sophisticatedmethods by which providers are
defrauding or abusing the Medicare program. The carriers’ annual managementreports could
be usedasone data sourcefor this analysis.

Impact: This will assure that the generalfoundation neededto achievethe maximum tffective­
nessof the new guidelines is in place at all carriers,and that the efficiency and effectiveness
levels gained by the implementation of the new MCM sectionsam maintained on an ongoing
basis.

HCFA Comments: “The OIG makesthe point that HCFA should ensurethe capability of each
canier to apply the new guidelines. Measuring contractor capability is one of the major objec­
tives of the CPEPprogram....

While HCFA feels strongly that it should havethe sole responsibility for performing CPEP
reviews, we do encouragethe OIG to conduct training sessionson both the national and
regional level asa meansof increasing the effectivenessof the CPEPreviews asthey relate to
program integrity functions. This seemsto be a natural and equitable division of respon­
sibilities with respectto the CPEPprogram. In fact, staff level discussionsbetweenHCFA and
the OIG have already initiated communications betweenregional OIG and CPEPstaff.”




                                                18 

RECOMMENDATION      #4 

Designate HCFA Regional         Office Program     Integrity   Coordinators 


Finding:   Carrier staff membersare confused asto whom to contact on procedural or policy
matters involving the program integrity function. Carrier staff do not feel HCFA hasthe tech­
nical knowledge of fraud or abuseissuesnecessaryto provide adequateguidance in this area.

Recommendation:     The HCFA should designateone personin eachof its regional offices to
act as a Program Integrity Coordinator for all carriers in the region. The functions of this posi­
tion would include: (1) acting as a liaison with the carriers on all matters involving the
program integrity effort; (2) providing a focal point for receipt, analysis, and feedbackfor
reports submitted by the carriers; (3) participating directly (or asa consultant) in the CPEP
review processof measuring carrier “program integrity” performance; and, (4) assuringthat
chronic abusersare not being kept on prepaymentreview indefinitely when other action is ap­
propriate. The HCFA should ensurethat the personsappointed asprogram integrity coor­
dinators haveor receive appropriatetraining.in fraud and abusematters to enable them to
perform their functions adequately.

Impact: Creation of this position would improve communications betweenHCFA and the car­
riers and, thus, should improve overall results of the carriers’ program integrity functions.

HCFA Comments:        “In view of the presentstaffing shortagesand its many other respon­
sibilities, it would be counterproductive for HCFA to designatea PI coordinator in each
regional office.”


RECOMMENDATION #5 

Ensure Adequate Peer Review                                            .

Finding:  Not all carriers visited during this inspection had the capacity to obtain peerreview
servicesnecessaryto support administrative sanctionactions taken againstphysicians who are
abusing the Medicare program by providing excessiveor unnecessaryservices.

Recommendation:    The HCFA should explore the possibility of carriers who do not have suffr­
cient peerreview capabilities obtaining such servicesthrough the appropriatepeer review or­
ganization (PRO) under contract with HCFA in their States. For thosecarriers which do have
adequatepeerreview, HCFA should determine whether such servicescould be supplied by the
PRO on a more cost-effective basis,if the sameor higher quality level can be achieved.

Impact: This will ensurethat all carriers havethe peer review capabilities necessaryto support
administrative sanction actions, which act as an important deterrent againstabuseof the
Medicare program.




                                                 19 

HCFA Comments: “HCPA hasincreasedits budgetrequestto $50 million for medical review
doctors at carrier sites. Assuming this money is forthcoming, we believe this should be ade­
quate funding to provide sufficient peer review capability to eachcarrier.”


RECOMMENDATION #6
Separate Program Integrity Budget
Finding: Canier program integrity costsarecurrently included, along with prepayment
review costs,in the generalbudget category known asMedical Review/Utilization Review.
Costsfor individual functions within this category are not separatelyidentified. The effective­
nessand efficiency of postpaymentfunctions are evaluatedin terms of how they comparewith
prepayment functions, rather than on their own merits.

Recommen&tion:      The HCPA should separatethe carriers’ program integrity costs(e.g., com­
plaint resolution and postpaymentreview, and whateverother functions HCFA, the OIG, and
the carriers agreeshould be included under the heading of “program integrity”) from prepay­
ment MR/UR costsfor budget and accounting purposes.

Impact: This will allow for a more accurateassessmentof the adequacyof program integrity
funding levels and will help to convey to carriers the importance of their program integrity
functions.

HCFA Comments: “HCPA believesthat some type of a fiscal reporting systemcould be
devisedto captureoverall PI costs. The main problem would be to devise a suitabledefinition
of PI that would be accurateand acceptableto both HCPA and the OIG. Devising a workable
deftition (and the costsassociatedwith it) is difficult at best HCPA would welcome staff
input from the OIG asto how a proper reporting mechanismcould be devised. The financial
staff within HffA’s Bureau of Program Operations(BPO) could work with OIG staff to
devise a good fiscal reporting systemfor PI costs,once agreementhad beenreachedon the
definition.

“Another aspectof this recommendation is to separatePI for budget preparation purposes. We
cannot support this aspectof the recommendation. It would be difficult to justify such an ar­
tificial separationsincemost of the MR/UR functions are inexorably interwoven. In many
cases,the samepersonnel,computers,etc., are usedto do both PI issuesas well asnormal
claims processing. The temptation with a budget line for PI is to argue that this areabe
funded disproportionately to the other MR/UR functions. This could lead to annual disagree­
ments with OIG for eachcarrier’s budgetfor PI. We do not wish to encouragedistinctions be-
tween payment safeguards(including good claims processing)and program integrity (asthe
OIG thinks of it).”




                                               20 

RECOMMENDATION      #7 

Assess Benefits Of Current       Postpayment      Functions 


Finding:   Numerous functions havebeenaddedto the carriers’ postpaymentprocessesin
recent years. Carrier staff interviewed indicated that not all of the functions addedareeffec­
tive or efficient in terms of either dollars returned or deterrence.

Recommend&ion:      The HCFA should analyze eachfunction of the postpayment areato deter-
mine the extent of the benefit to the program integrity effort derived from that activity. Non-
productive processesshould be modified or eliminated.

Impact: This will assurethat limited resourcesare being utilized in the most productive man­
ner possible.

HCFA Comments: “We agreewith this recommendation. HCFA recognizesthe value of effec­
tive postpaymentreviews to avoid inappropriate program expenditures. Thus, we would wel­
come any suggestionsthe OIG may haveon processeswhich they consider to be productive or
nonproductive.”


RECOMMENDATION      #8 

Review Program Integrity CPEP Elements             Annually 


Finding. The fraud and abuse,and effective postpaymentprocesselementsof the Carrier Per­
formance Evaluation Processhavenot beengiven adequateattention in recent years. For Fis­
cal Year 1986, the fraud element was not reviewed at 41 percentof all carriers, and the
effective postpaymentelement was not reviewed at 52 percentof the carriers.

Recommenddion:     The HCFA should ensurethat all elementsof the CPEPpertaining to the
program integrity function arereviewed at all carriersyearly.

Impact: This will assureidentification of carriers with performancedeficiencies so that correc­
tive action may be implemented and will also convey to the carriers the importance of the
program integrity area.

HCFA Cornmen&: “FY 1986 was the only year that fraud and abusestandardswere not
reviewed at all contractorsand this was instituted as an optional element only becauseof
regional office (PO) resourceslimitations. In FY 1987, when the standardswere deemedcriti­
cal, reviews were required to be conductedat all contractors. For FY 1988 and FY 1989,
HCFA determined that all standardswill be reviewed at all contractor sites.”




                                                21 

RECOMMENDATION       #9 

Improve Technical Knowledge          Of CPEP Reviewers 


Finding: Carrier staff interviewed believe ihat, in general,HCFA personnelconducting the
casereviews for the fraud and abuseCPEPelementdo not havesufficient training or back-
ground in fraud and abusemattersto adequatelyassesscarrier performance in this area. This
opinion was echoedby severalHCPA reviewers.       .

Recommendiztion: The HCFA should assurethat regional office staff reviewing the program
integrity CPEPelementshave sufficient training and knowledge in fraud and abusemattersto
enable them to conduct suchreviews adequately.

Impact: This should improve the effectivenessof the CPEPprocesswhich, in turn, should
lead to more effective performanceof the program integrity function by the carriers.

HCFA Comments: “To do the most thorough evaluation of PI-related CPEP standards,RO
staff would have to be mom thanjust familiar with fraud and abusematters. Such staff would
have to be conversantwith the role of pre-pay and post-pay MRKJR in uncovering fraud and
abuse....We suggestthat the OIG provide guidelines to the HCPA RO CPEPstaff that could
be usedin evaluating carrier PI functions. Again, we feel OIG training at both the national
and ttgional level will do much to alleviate this problem.”


RECOMMENDATION     #IO 

Expand Fraud And Abuse CPEP Element 


Finding: The CPEPelement concerning carrier performancein the complaint resolution area
consistsof a review of only 10 casesof alleged provider fraud or abuseopenedby the carrier
during the review period. Canier and HCPA personnelinterviewed believe this is an inade­
quate number of casesat larger carriers and that many of the casesopenedduring the review
period may have had little or no action-taken on them at the time of the CPEPreview.

Recommendation:    The HCFA should expand the number of casesto be reviewed for the fraud
and abuseelement to a sample size more representativeof the carrier’s claims volume or
program integrity workload. Additionally, the review should include cases“closed” by the car­
rier, not just those “opened,” in order to provide a broaderreflection of the carrier’s total ac­
tivities related to this area.

Impact: This will improve the effectivenessof the fraud and abuseCPEPelement as a true
measurementof carrier performance.

HCFA Commenfs: “This presentmethod of evaluation (MOE) is basedon “small samples”in
recognition of limited RO resources. In the absenceof updatedinstructions, an expanded
review was not an efficient way to use limited resources. The MOE can be expandedto a full
sample,but this is contingent upon the releaseof updatedinstructions, including timeframes, as


                                               22 

well as the availability of sufficient RO resourcesto conduct additional reviews. In spirit,
HCFA agreeswith the recommendation,but with the limited staff resourcesnow available for
this activity, it will be difficult to implement. We have however,revised the FY 1989 CPEP
standardsto explicitly include for samplereview thosefraud and abusecasesreceived in FY
1989or closed in FY 1989.”


RECOMMENDATION      #ll
Modify Measure Of Efficiency

Finding: The CPEPmeasuresthe efficiency of the carriers’ postpaymentactivities by means
of the cost-benefit ratio of the prepayment and postpaymentareascombined The CBR of the
postpaymentareahashistorically beenfar less than that of the prepayment area. This is be­
causepostpaymentis more labor-intensive than prepayment, and much of the benefit of the
postpaymentprocessis in the form of deterrence,which is not easily quantified.

Recommendation:    The HCFA should separatethe postpaymentand prepayment areasfor pur­
posesof assessingthe efficiency of the postpaymentprocess. The minimum CBR acceptable
for the postpayment areashould be reducedto a more practical level. Carriers should be given
“credit” in the measurementprocessfor monies savedbeneficiaries asa result of their actions
on assignmentviolations, and for caniers’ innovative approachesof detecting or deterring
fraud or abuse.

Imp&z   This will provide a more accuratereflection of the benefits derived from the postpay­
ment process,encouragecarriers to develop innovative review methods (possibly already
being usedin their private business),and eliminate the pressureto concentrateresourceson
the prepayment side due to the higher CBR of that area.

HCFA Comments: “Conceptually, this recommendation hasmerit. We have beenexamining
the prepayment and postpaymentareasvery closely for some time and will continue to do so.
However, our studiesreveal that it is a very complex and involved areawith no easy solutions.
We would welcome any suggestionsthe OIG might haveon how best to equitably treat car­
riers in the measurementprocess. We would also be interestedin any suggestionsthe OIG
might haveon a minimum cost benefit ratio acceptablefor the postpaymentarea.”


RECOMMENDATION     #12 

Improve Systems For Carrier/OiG        Feedback     And Communications 


Finding: Carriers were unevenin voicing concernor praiseregarding their relationship with
OIG regional staffs. Some noted that OIG failed to acknowledgereceipt of casesof suspected
fraud, and noted their needfor feedbackon status and disposition.




                                             23 

Recommendation: The OIG should undertakea detailed examination of casecontrol systems
and other processesinvolving carrier/OIG interaction and consider the needfor altering these
systems/processesto improve communications.

Impactz Carriers, in general, would be more likely to refer cases,and to more closely follow
soundinvestigative techniques,with the prior knowledge that the OIG would give periodic
and timely feedbackon suchreferrals.

OIG Comments: The OIG hasinitiated an internal review to addressthis issue.




                                               24 

